       July 15, 2002




   Financial Management

  Promptness of FY 2002 Fourth
  Quarter DoD Payments to the
  Department of the Treasury for
  District of Columbia Water and
  Sewer Services
  (D-2002-128)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
IG DoD                Inspector General of the Department of Defense
WASA                  Water and Sewer Authority
         Office of the Inspector General of the Department of Defense
Report No. D-2002-128                                                      July 15, 2002
  (Project No. D2001FA-0154.004)

      Promptness of FY 2002 Fourth Quarter DoD Payments to the
         Department of the Treasury for District of Columbia
                      Water and Sewer Services

                                   Executive Summary

Who Should Read This Report and Why? This report should be read by DoD
managers who have a direct interest in, or are in need of information about, the
promptness of water and sewer payments to the District of Columbia.

Background. The audit was conducted in response to Public Law 106-554, the
Consolidated Appropriations Act of 2001. The Act requires the inspector general of each
Federal agency that receives water and sewer services from the District of Columbia to
report to the Congressional Appropriations Committees on the promptness of payments
within 15 days of the start of each quarter. The District of Columbia Water and Sewer
Authority supplies both water and sewer services to Federal agencies and DoD
Components within the National Capital Region. The Department of the Treasury is the
collection agent for Federal agencies and DoD Components’ water and sewer payments,
with the Department of the Treasury submitting a single payment to the Water and Sewer
Authority. The DoD Components, composed of 17 separate installations, sites, and
organizations, are required to make advance quarterly payments to the Department of the
Treasury for estimated bills on anticipated water usage in FY 2002.

Results. DoD Components, except Fort Myer, promptly made fourth quarter FY 2002
payments to the Department of the Treasury for District of Columbia water and sewer
services. The Department of the Treasury withdrew $230,000 from the Army on
July 1, 2002, to pay the District of Columbia for second, third, and fourth quarter water
and sewer services to Fort Myer. Army officials dispute the appropriateness of the
withdrawal for Fort Myer, because Fort Myer discontinued receiving water services from
the District of Columbia in 1999. Also, Washington Headquarters Services paid $89,000
for Arlington National Cemetery’s fourth quarter FY 2002 water and sewer bill as
required by Public Law 107-20. The Navy and Air Force Components have credit
balances from prior overpayments and were not required to make quarterly payments for
FY 2002.

Management Comments. We provided a draft report on July 10, 2002. No written
response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objective                                                                    2

Finding
     DoD FY 2002 Fourth Quarter Payments to the Department of the Treasury   3

Appendixes
     A. Scope and Methodology
          Scope and Methodology                                              5
          Prior Coverage                                                     5
     B. DoD Customers of the District of Columbia Water and Sewer
        Authority                                                            7
     C. Report Distribution                                                  8
Background
    This audit was required by Public Law 106-554, the Consolidated Appropriations
    Act of 2001. Public Law 106-554 states:

           Not later than the 15th day of the month following each quarter, the
           inspector general of each Federal department, establishment, or agency
           receiving water services [or sanitary sewer services] from the District
           shall submit a report to the Committees on Appropriations of the House
           of Representatives and the Senate analyzing the promptness of
           payment with respect to the services furnished to such department,
           establishment, or agency.

    This report covers FY 2002 fourth quarter payments and is one in a series of
    reports discussing the promptness of DoD payments to the Department of the
    Treasury for District of Columbia water and sewer services.

    The District of Columbia Water and Sewer Authority. The District of
    Columbia supplies both water and sewer services to Federal agencies and DoD
    Components within the National Capital Region. Since October 1996, the
    District of Columbia Water and Sewer Authority (WASA) has been responsible
    for delivery of water and sewer services to DoD Components. WASA provides
    meter readings and annual estimated billings to the Department of the Treasury
    for water and sewer services provided to the Federal agencies, including
    DoD Components.

    Department of the Treasury Responsibility. Under the District of Columbia
    Public Works Act of 1954, the Federal Government was to receive water and
    sewer services from the District of Columbia, and the District of Columbia was
    paid with an annual lump sum in accordance with the District of Columbia
    Appropriations Act. The District of Columbia Appropriations Act of 1990
    (Public Law 101-168) changed the payment process by designating the
    Department of the Treasury as the collection agent for the Federal agencies’ water
    and sewer payments, with the Department of the Treasury remitting a single
    payment to the District of Columbia. Public Law 106-554 amends the process
    used by the Federal agencies to make payments to the Department of the
    Treasury. The Department of the Treasury is now authorized and directed to
    automatically withdraw funds from Federal agencies and provide those funds to
    WASA by the second day of each quarter when agencies do not forward timely
    payments of amounts billed by WASA. The Department of the Treasury bills
    Federal agencies and DoD Components annually for their estimated water and
    sewer usage and makes quarterly payments to WASA based on meter readings
    and estimates provided by WASA. The DoD Components are required to make
    quarterly payments to the Department of the Treasury for those annual estimated
    bills. See Appendix B for a list of DoD Components, composed of 17 separate
    installations, sites, and organizations, that received WASA services.

    Public Law 107-20. Public Law 107-20, the Supplemental Appropriations Act
    of 2001, removes the authority of the Department of the Treasury to withdraw
    funds from Arlington National Cemetery (Cemetery) for payment to the District


                                             1
    of Columbia for water and sewer services. The law requires that DoD pay the
    difference between the amount the Cemetery previously paid for estimated water
    bills and the actual amount billed to the Cemetery. Furthermore, the law requires
    that for FY 2002 and future years, the Cemetery’s water and sewer bills be based
    on actual meter readings on the grounds of the Cemetery. The law also directs the
    Department of the Treasury to reimburse the Cemetery for previous withdrawals
    with funds taken from other DoD appropriation accounts.

    Federal Agency Responsibility. Public Law 101-168 mandates responsibility to
    the respective Federal agencies for payment of water and sewer services. The
    funds for the services come through the agencies’ operating budgets and their
    respective appropriations bills. Each quarterly payment is due to the
    U.S. Treasury account, “Federal Payment for Water and Sewer Services,” on the
    first day of the quarter. DoD Components make their payments to the Department
    of the Treasury through the Defense Finance and Accounting Service (DFAS).

    DFAS Responsibilities. DFAS provides finance and accounting services, to
    include making bill payments, to DoD Components. Specifically, DFAS
    Indianapolis provides financial services to the Army, DFAS Cleveland provides
    those same services to the Navy, and DFAS Omaha provides financial services to
    the Air Force. The DoD Components submit requests for payments of water and
    sewer services to the appropriate DFAS location, and DFAS pays the Department
    of the Treasury either by check or electronic transfer in the amount indicated on
    the request.


Objective
    The audit objective was to determine the promptness of DoD FY 2002 fourth
    quarter payments to the Department of the Treasury for District of Columbia
    water and sewer services. See Appendix A for a discussion of the scope and
    methodology and prior coverage related to the objective.




                                        2
           DoD FY 2002 Fourth Quarter Payments
           to the Department of the Treasury
           DoD Components, except Fort Myer, promptly made fourth quarter
           FY 2002 payments to the Department of the Treasury for District of
           Columbia water and sewer services. The Department of the Treasury
           withdrew $230,000 from the Army on July 1, 2002, to pay the District of
           Columbia for second, third, and fourth quarter water and sewer services to
           Fort Myer. Army officials dispute the appropriateness of the withdrawal
           for Fort Myer, because Fort Myer discontinued receiving water services
           from the District of Columbia in 1999. Also, Washington Headquarters
           Services paid $89,000 for Arlington National Cemetery’s fourth quarter
           FY 2002 water and sewer bill as required by Public Law 107-20. The
           Navy and Air Force Components have credit balances from prior
           overpayments and were not required to make quarterly payments for
           FY 2002.


Promptness of FY 2002 Fourth Quarter DoD Payments
    DoD Components, except Fort Myer, made prompt payments of their District of
    Columbia water and sewer bills for the fourth quarter of FY 2002. The
    Department of the Treasury withdrew $230,000 for second, third, and fourth
    quarter water and sewer services billed by the District of Columbia to Fort Myer.
    Army officials at Fort Myer believe that the bill should not be paid because Fort
    Myer discontinued water services with WASA in January of 1999 (FY 1999) after
    one quarter of usage. The Army previously paid $185,000 for FY 1999 estimated
    water usage for Fort Myer. As a result, Army officials contend that the $185,000
    paid on the FY 1999 estimated water usage for Fort Myer should be sufficient.
    Because Public Law 101-168 does not provide a mechanism to resolve billing
    disputes between WASA and Federal agencies or between Federal agencies and
    the Department of the Treasury, the Army will continue to work with WASA and
    the Department of the Treasury to resolve all outstanding issues regarding Fort
    Myer. As shown in the following table, DoD Components were billed
    $2.1 million, paid $814,000, had credits from overpayments of $1.6 million, and
    the Department of the Treasury withdrew $230,000 for the FY 2002 fourth
    quarter payments.




                                        3
                             DoD Components’ FY 2002 Fourth Quarter Bills and Payments
                                               (As of July 2, 2002)
                                                        Amount Billed           Credits From Overpayments            Amount Paid or Withdrawn
                                                         (thousands)                    (thousands)                        (thousands)

Pentagon                                                   $ 343                          $      0                             $    343
Arlington National Cemetery                                    89                                0                                   891
Fort Myer                                                      77                                0                                  2302
Walter Reed Army Medical Center                               382                                0                                  382
                 3
Fort McNair                                                      6                               0                                    04
Navy5, 6                                                      634                          (1,028)                                    0
                             7
Bolling Air Force Base                                        409                             (580)                                   0
National Imagery and Mapping Agency                           205                                0                                     08
       Total                                              $2,145                          $(1,608)                              $1,044
1
    Pursuant to Public Law 107-20, Washington Headquarters Services paid Arlington National Cemetery’s fourth quarter bill.
2
    According to U.S. Treasury officials, they withdrew Fort Myer’s second, third, and fourth quarter payments. Fort Myer discontinued water
    services in January 1999. Fort Myer receives and pays for water services provided by Arlington County, Virginia.
3
    Includes Fort McNair, National War College, and National Defense University Center.
4
    Fort McNair paid $24,000 for the FY 2002 bill in the first quarter ($6,000 per quarter) and thus is not required to make a quarterly payment
    in the fourth quarter.
5
    Includes Anacostia Naval Station, Bellevue Naval Housing, Naval Observatory, Marine Corps Barracks (8th & I), Naval
    Research Laboratory, Nebraska Avenue Annex, Potomac Annex, and Washington Navy Yard.
6
    Estimated amount billed for FY 2002 was $2.5 million ($634,000 represents the quarterly amount billed); a credit adjustment of
    $4.1 million ($1,028,000 represents the quarterly credit) for FY 1999 overpayments.
7
    Estimated amount billed for FY 2002 was $1.6 million ($409,000 represents the quarterly amount billed); a credit adjustment of
    $2.3 million ($580,000 represents the quarterly credit) for FY 1999 overpayments.
8
    The National Imagery and Mapping Agency paid $410,000 for the third and fourth quarters in the third quarter of FY 2002 and thus is not
required to make a quarterly payment in the fourth quarter.




                                                                 4
Appendix A. Scope and Methodology

Scope and Methodology
     Work Performed. We reviewed DoD Component billing and payment
     information for the fourth quarter of FY 2002 for District of Columbia water and
     sewer services. Specifically, we reviewed bills received by DoD Components
     from the Department of the Treasury to establish the amounts billed for water and
     sewer services. We contacted the Department of the Treasury to confirm that
     funds available to DoD Components were withdrawn to pay the District of
     Columbia for FY 2002 fourth quarter water and sewer bills. See Appendix B for
     a list of DoD Components that received water and sewer services from WASA.

     General Accounting Office High-Risk Area. The General Accounting Office
     has identified several high-risk areas in DoD. This report provides coverage of
     the DoD Financial Management high-risk area.

     Use of Computer-Processed Data. We did not rely on computer-processed data
     for our review of billing and payment data for water and sewer services provided
     to DoD Components by WASA.

     Audit Dates and Standards. We performed this audit from June through
     July 2002 in accordance with generally accepted government auditing standards.
     We did not review management controls over the payment of water and sewer
     bills because the audit is required every 3 months by statute and an audit of the
     management control program is in progress.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within DoD, DFAS, and the Department of the Treasury. Further
     details are available on request.


Prior Coverage

Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2002-082, “Promptness of FY 2002 Third Quarter DoD
     Payments to the Department of the Treasury for District of Columbia Water and
     Sewer Services,” April 15, 2002

     IG DoD Report No. D-2002-040, “Promptness of FY 2002 Second Quarter DoD
     Payments to the U.S. Treasury for District of Columbia Water and Sewer
     Services,” January 15, 2002

     IG DoD Report No. D-2002-007, “Promptness of FY 2002 First Quarter DoD
     Payments to the U.S. Treasury for District of Columbia Water and Sewer
     Services,” October 15, 2001


                                         5
IG DoD Report No. D-2001-159, “Promptness and Completeness of FY 2001
Fourth Quarter DoD Payments to the U.S. Treasury for Water and Sewer Services
Provided by the District of Columbia,” July 13, 2001

IG DoD Report No. D-2001-100, “Promptness and Completeness of FYs 2000
and 2001 DoD Payments to the U.S. Treasury for Water and Sewer Services
Provided by the District of Columbia,” April 13, 2001

IG DoD Report No. D-2001-053, “DoD Payments to the U.S. Treasury for Water
and Sewer Services Provided by the District of Columbia,” February 15, 2001




                                  6
Appendix B. DoD Customers of the District of
            Columbia Water and Sewer
            Authority
According to the District of Columbia Water and Sewer Authority, the list below
identifies the 17 DoD Components for which the Water and Sewer Authority provides
estimated bills to the Department of the Treasury for water and sewer services for
FY 2002.

       Army
       Arlington National Cemetery
       Fort McNair
       Fort Myer
       Walter Reed Army Medical Center

       Navy
       Anacostia Naval Station
       Bellevue Naval Housing
       Marine Corps Barracks (8th & I)
       Naval Observatory
       Naval Research Laboratory
       Nebraska Avenue Annex
       Potomac Annex
       Washington Navy Yard

       Air Force
       Bolling Air Force Base
       Other Defense Organizations
       National Defense University Center
       National Imagery and Mapping Agency
       National War College
       Washington Headquarters Services




                                          7
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Commander, Fort Myer
Director, Arlington National Cemetery

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Field Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, National Imagery and Mapping Agency
Director, Washington Headquarters Services

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Inspector General, Department of the Treasury




                                          8
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                           9
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Garold E. Stephenson
Robert K. West
Henry F. Kleinknecht
Ronald W. Hodges
Nicole M. Ellis
